     QUALITY CONTROL REVIEW OF
    AUDITED FINANCIAL STATEMENTS
     FOR FISCAL YEARS 2003 AND 2002

Saint Lawrence Seaway Development Corporation

        Report Number: QC-2004-009
        Date Issued: December 23, 2003
           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review                    Date:     December 23, 2003
           of Audited Financial Statements
           for Fiscal Years 2003 and 2002
           Saint Lawrence Seaway Development Corporation
           QC-2004-009
                                                                Reply to
  From:    Alexis M. Stefani                                     Attn of:   JA-20:x61496
           Principal Assistant Inspector General for
             Auditing and Evaluation

    To:    Saint Lawrence Seaway Development
            Corporation Administrator

           The audit of the Saint Lawrence Seaway Development Corporation’s Financial
           Statements as of, and for the fiscal years ended, September 30, 2003, and
           September 30, 2002, was completed by Daniel Eke and Associates, P.C. of Silver
           Spring, Maryland. We performed a quality control review of the audit work to
           determine compliance with applicable standards. These standards include the
           Chief Financial Officers Act, Government Corporation Control Act, and
           Government Auditing Standards.

           The Daniel Eke and Associates, P.C. audit report rendered an unqualified opinion,
           also known as a clean opinion, on the financial statements. The report did not
           identify any reportable internal control weaknesses or material non-compliance
           with accounting principles, laws, and regulations.

           In our opinion, the audit work complied with applicable standards. Therefore, we
           are not making any recommendations, and a response to this report is not required.

           We appreciate the cooperation and assistance of representatives of the Saint
           Lawrence Seaway Development Corporation and Daniel Eke and Associates, P.C.
           If we can answer questions or be of any further assistance, please call me at
           (202) 366-1992, or Ted Alves at (202) 366-1496.

           Attachment

                                                       #
